U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

October 8, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Sheckles v. United States, No. 21-5228
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on July 22, 2021.
The government’s response is now due, after one extension, on October 22, 2021. We respectfully
request, under Rule 30.4 of the Rules of this Court, a further extension of time to and including
November 8, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Brian H. Fletcher
Acting Solicitor General
cc:

See Attached Service List

21-5228
SHECKLES, DWAYNE
USA

KEVIN MICHAEL SCHAD
OFFICE OF THE FEDERAL PUBLIC DEFENDER
250 E. FIFTH STREET
STE. 350
CINCINNATI, OH 45202
513-929-4834
KEVIN_SCHAD@FD.ORG

